PROOF OF SERVICE
I, do swear or declare that on this date, March 1, 2021 , as required by
Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with ﬁrst-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days. The names and addresses of those served are as
follows:
ALF J. AANONSEN, Respondent
57 Anderson Street
Sandford, CT 06902,
Email: alf.j.aanonsen@gmail.com.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 1, 2021
ARTHUR J. MORBURGER
Counsel of Record
19 WEST FLAGLER STREET.
SUITE 404
Miami, FL 33130
(305) 374-3373
Email: amorburger@bellsouth.net
Fla. Bar No. 157287
/s/Arthur J. Morburger

